IN THE SUPREME COURT OF PUERTO RICO
ROOM 11

The town of Puerto Rico
Appealed
Num. CC- 2020-0639

v.
Camilo Arango Latorre
Petitioner

Dispatch room compose of the Associate Judge Mr. Martinez Torres as President,
Associate Judge Mr. Kolthoff Caraballo, Associate Judge Mr. Feliberti Cintron and Associate
Judge Mr. Colon Perez.

Resolution

San Juan, Puerto Rico, February 12, 2021
Once the petition for certiorari presented by the petitioning
party has been attended, No Place Has Been Provided.
It was agreed by the court and certified by Secretary of the
Supreme Court. The Associate Judge Mr. Colon Perez would issue the
order.
Jose Ignacio Campos Perez
Secretary of the Supreme Court

;v1

•a

rr

BK EL TRIBUNAL StJFRBKO DE niO RIGO '
m ii

El Pueblo de Puerto Rico
Recurrido
v.

NujjwC-2020-0639

Eamilo Arango mmm
:Pdtidlb«te

Sala de Despacho integrada pop el Juez Asociado se'fior Martinez
Torres como Presidente, el Juez Asociado sefior Kolthoff Caraballo,
el Ju©2 Asociado sefior Feliberti Cintrbn y el Juez Asociado sefior
Col6n P6rez."

kesoloci6k

San

Rico, ;a:. 12 de febrero de ;2<)21..

StdndMa: ;|!a Petieidn: de ViSrfcjoPari; presentada
■por la parte peticionaria, se provee No Ha Lugar.
Lo acordd el Tribunal :y certifica eiSecretario del Tribunal Supremo, 1e3l; Juez Asociado
sefior Col6n P6rez expediria para pautar.

1

\|}
Jose/gnacItrsCaJfipos P§rez
|£/Seeretaffi'a del. Tr^Mai • Supremo

*

■

::

COMMONWEALTH OF PUERTO RICO
APPEALS COURT
PANEL 11

THE PEOPLE OF PUERTO RICO
APPEALED

CERTIORARI
FROM THE COURT OF
FIRST INSTANCE,

v.
CAMILO ARANGO LATORRE

SUPERIOR CHAMBER OF

PETITIONER

ARECIBO.

CRMINAL NUM:
CV12009G0034, AND
OTHERS.
ON:
Art. 109 C. P. (1st grade),
And others.
Panel made up of its president, Judge Jimenez Velaquez, Judge Romero Garcia, and Judge
Mendez Miro.
Romero Garcia, rapporteur Judge.
RESOLUTION
In San Juan, Puerto Rico, on November 5, 2020
The petitioning party, Mr. Camilo Arango Latorre, filed his appeal on August
5,2020. In it, he requested that this appeal forum revoke the Resolution issued on July 9, 2020 by
means of which the Court of First Instance, Superior Chamber of Arecibo, denied his request for
a new trial. This was submitted under the recent regulations established in Ramos v. Louisiana,
op.of April 20, 2020, 140 S. CT. 1930, 590US - (2020), and Pueblo v. Torres Rivera, op. of May
8, 2020, 2020 TSPR 42, the retroactive application of which is requested by the petitioning party.
After evaluating the petition for certiorari presented on September 23, 2020, we
conclude that we were not persuaded that the primary forum had made any error, justifying our
intervention at this stage of the proceeding. Consequently, We Deny the issuance of the writ of
certiorari.

Judge Mendez Miro disagrees with a written opinion.
Be notified.
It was agreed by the court and certified by the Clerk of the Court of Appeals.
Lcda. Lilia M. Oquendo Solis
Clerk of the Court of Appeals.

Page 1

Commonwealth of Puerto Rico
APPEALS COURT
PANEL II

THE PEOPLE OF PUERTO RICO
Appealed
Vs.
CAMILO ARANGO LATORRE
Petitioner

Certiorari
coming from
Court of
First
Instance, Superior Chamber of
Arecipo
Case No
CVI2009G0034
On:
Art. 106 CP (ler
degree) and others

Panel made up of its president, Judge Jimenez
Velazquez, Judge Romero Garcia and Judge Mendez
Miro
DISSENTING OPINION OF JUDGE MENDEZ MIRO
In San Juan, Puerto Rico, on November 5, 2020.
I respectfully disagree. I would have declared with 1 gar
the petition of Mr. Camilo Arango Latorre (Mr. Arango}
and ordered a new trial under Ramos v.
Louisiana, 140 S. Ct. 1390 (2020) and Pueblo v. towers
Rivera, 2020 TSPR 42.1 maintain that Mr. Arango has
right to request a new trial for lack of
unanimously in the jury's verdict despite the fact that his
appeal process concluded.
As a matter of law, Ramos v. Louisiana,
above, extended the right to a unanimous verdict to the
cases pending review. However, the More
Alto Federal recognized the possibility that this rule
can be applied to final and firm cases of reaching the

Page 2

recognized by Associate Judge Luis Estrella Martinez in his
expressions in Pueblo v. Torres Rivera, supra, two
As is known, in Teague v. Lane, 489 U.S. 288
(1989), the Federal Supreme Court developed a standard
to determine whether a rule of criminal procedure
newly recognized is retroactive to cases in
collateral review. That is, to cases in which the 1
appeal process would have concluded.
For starters, the Teague standard requires
determine if the rule that was adopted is new. A rule
new is defined as "a rule that was not dictated
by precedent existing at the time the defendant's
conviction became final. "Whorton v. Bockting, 549 U.S.
406, 416 (2007); Saffle v. Parks, 494 U.S. 484, 488
(1990). In this case, there is no doubt that the rule
adopted in Ramos v. Louisiana, supra, --and by the Court
Supreme Court of Puerto Rico in Pueblo v. Torres Rivera,
above - is a new rule. This, then, recognize that the
Sixth Amendment to the Federal Constitution requires that
a jury verdict is unanimous in all states
expressly revoked the precedents of Apodaca v.
Oregon, 406 U.S. 404 (1972) and Johnson v. Louisiana, 406
u.s. 356 (1972).
Once your new character is established, so that
applies to cases in collateral review, this rule has

Page 3

to be: (1) noun; or (2) a watershed rule. A
watershed rule refers to a rule of procedure
criminal that involves fundamental elements of the fairness
and correctness of the procedure. Whorton, supra, p. 416;
Shaffle, supra, p. 495; Teague,
supra, p. 311. Consono, the elements of a water hed
rule are: (a) that the rule is necessary to prevent
the impermissible high risk of an inaccurate conviction;
and (b) that alters the understanding of one of the elements
fundamentals of a fair procedure. Whorton, supra,
P.418.
As explained by the Federal Supreme Court in
Schriro v. Summerlin, 542 U.S. 348, 352 (2004), so
Generally, the new procedural rules do not apply
retroactively because its effect on a conviction is
speculative. Now, retroactive effect is given to
those rules "implicating the fundamental fairness
and accuracy of the criminal proceeding. That a new
procedural rule is 'fundamental' in some abstract sense
is not enough; the rule must be one 'without which the
likelihood of an accurate conviction is seriously diminished
'". (Citations omitted) (Emphasis supplied), say, in addition
to being a fundamental rule, the rule
has to be anchored in that, without it, the accuracy of the
conviction would be significantly reduced.

Page 4

Ramos v. Louisiana, supra, stated that unanimity in
A verdict is the fundamental principle behind a
trial by jury. Faced with such a constitutional imperative,
it is necessary to conclude that the accuracy and
reliability of a verdict that is not unanimous are
significantly reduced. In simpler words,
a guilty verdict that is not unanimous is, for
definition, inaccurate.
This, in turn, is linked to the obligation that the
evidence proves guilt beyond doubt
reasonable. Under this standard, the State has the burden
to convince each of the members of the jury, without
except that there is no doubt about the
need to deprive an individual of his freedom. The
purpose of this constitutional imposition was,
precisely, require an extraordinary level of
certainty to prevent misconceptions. Thus,
uphold the validity of a verdict for an amount
less than all the members of the jury destroys
this standard of proof, for there cannot be a fault
of reasonable doubt if one or more of the jurors
has doubt about guilt. 3
Again, the criminal law requires:
(a) proof beyond a reasonable doubt; (b) a
presumption of innocence; and (c) unanimity in the

Page 5

impermissible high risk of inaccurate convictions and is,
hence, a watershed rule.
Now, if logic dictates that the lack of unanimity
in the jury's verdict creates a high risk of
inaccurate convictions, how can the application be denied
retroactive to this rule --only-- because of the relationship
time between its adoption and the time it was issued
a sentence? How is it justified to recognize this right
constitutional - exclusively - to a certain part of the
population? • It, .a. my_. judgment, upset the bases more
fundamentals of a just order.
From my point of view, the rule of Ramos v. Louisiana,
above, altered our understanding of the elements
fundamentals of justice in criminal proceedings.
Extend to the states the requirement of unanimity in a
verdict, regardless of their constitutions or
jurisprudence, shook the foundations of what
was fair procedure in Louisiana, Oregon, and
Puerto Rico. This is precisely the essential element
of a watershed rule: a rule that, in order to ensure
a fair trial, compels states to provide and
ensure a basic and essential element in your
criminal proceedings.
I am aware that the Federal Supreme Court
highlights that the Teague v. Lane, supra, is

Page 6

trust in our justice system. I am clear
and I do not turn my back on the imperative of the State in
confer finality to sentences and convictions.
However, the goal of the criminal system is not
purpose of the sentences, but to obtain justice. Not
there is justice when a remedy is denied to those
individuals who were convicted with a verdict that today
for today it is unconstitutional.

. Mendez Mir6
Juez de Apelaciones

COMMONWEALTH OF PUERTO RICO
APPEALS COURT
CERTIORARI from the Court
THE PEOPLE OF PUERTO
RTCH_------------------------first instance,
Superior Room of
Appealed,
Arecibo.
v.
CAMILO ARANGO
Criminal no
TOWER,
C V12009G0034, and
Petitioner.
others.
On:
Art. 109 C.P. (1st
degree), and others.
Panel made up of its president, Judge Jimenez Velazquez,
Judge
Romero Garda and Judge Mendez Miro.
Romero Garda, rapporteur judge.
RESOLUTION
In San Juan, Puerto Rico, on November 5, 2020.
The petitioning party, Mr. Camilo Arango Latorre,
presented his
appeal on August 5, 2020. In it, he requested that this
appeal forum
revoke the Resolution issued on July 9, 2020, by
• )
which the
Court of First Instance, Superior Chamber of Arecibo,
denied his request
new trial 1
. Ista was presented under the recent regulations
established in Ramos v. Louisiana, op. of April 20, 2020,
140 S.Ct.
1390, 590 US _ (2020), and Pueblo v. Torres Rivera, op.
May 8
2020, 2020 TSPR 42, whose retroactive application
requests the part
petitioner.
For its part, on September 23, 2020, the People of Puerto
Rico
appeared through the Attorney General's Office through
his

Page 2
Having evaluated the briefs of the appearing parties, this
Court
--------------------------conclude as follows.
It is known that this appellate forum will not intervene with
the
exercise of the discretion of the Court of First Instance, except
in Lin

gross abuse of discretion or that the court [acted] with
prejudice
and bias, or that he [was wrong] in the interpretation or
application of any procedural norm or substantive law, and
that
our intervention at this stage will avoid substantial damage.
"Lluch v.
Spain Service, 117 DPR 729, 745 (1986).
assessed the petition for certiorari presented on September
23,

2020, we concluded that we were not persuaded that the
primary forum had
made any mistake, justifying our intervention at this stage of
the procedures. Consequently, we deny the issuance of the
writ of certiorari.
Judge Mendez Mir6 disagrees with a written opinion.
Be notified.
It was agreed by the Court and certified by the Secretary of
the Court of
Appeals.
Lcda. Lilia M. Oquenoo Solis
Secretaria del Tribunal de Apelaciones

Additional material
from this filing is
available in the
Clerk's Office.

